No. ____________
IN THE
SUPREME COURT OF THE UNITED STATES
JUSTICE TOWAN ROUNDTREE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I, Jeremy A. Thompson, Assistant Federal Public Defender, do declare that on this
12th day of March, 2021, pursuant to Supreme Court Rules 29, I have served the
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR
A WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel by depositing via first class mail, postage prepaid and emailed as follows:
Solicitor General of the United States
Room 5616
U.S. Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 30530-0001
Email: SupremeCtBriefs@USDOJ.gov
s/ Jeremy A. Thompson
Jeremy A. Thompson, Esquire
Assistant Federal Public Defender
1901 Assembly Street, Suite 200
Columbia, South Carolina 29201
Telephone: (803) 765-5077
Jeremy_Thompson@fd.org
COUNSEL OF RECORD
FOR PETITIONER
Columbia, South Carolina
March 12, 2021

